June 10, 2021
Scott S. Harris, Clerk
Supreme Court of the United States
1 First Street, NE
Washington, DC 20543-0001
Re: John Wayne Collins v. James David Green, Warden
No. 20-1613
Dear Mr. Harris:
The Warden respectfully requests an extension of 20 days to file its brief in
opposition to the petition for writ of certiorari. Counsel is currently working on an
answer to a writ for petition for habeas corpus, the deadline for which was already
extended to the end of June. Counsel spent a substantial amount of time preparing
for an oral argument that the Kentucky Supreme Court heard yesterday. And the
supervising attorney who will review a draft of the brief will be out of the office for a
week in late June. Counsel needs the additional time to complete the brief in
opposition.
The Warden’s brief in opposition is due July 1, 2021. The 20-day extension would
make it due Wednesday, July 21, 2021.
Counsel of record for the Petitioner, Hon. Edward Williams, has stated he has no
opposition to this request.
Respectfully Submitted,
/s/ James Havey
James Havey
Assistant Attorney General
cc: Hon. Edward Williams

